<html>
<title> - OPPORTUNITIES FOR STATE LEADERSHIP OF EARLY CHILDHOOD PROGRAMS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                   OPPORTUNITIES FOR STATE LEADERSHIP
                      OF EARLY CHILDHOOD PROGRAMS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 13, 2017

                               __________

                           Serial No. 115-23

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  
  


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 26-143 PDF              WASHINGTON : 2018       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Steve Russell, Oklahoma              Mark Takano, California
Elise Stefanik, New York             Alma S. Adams, North Carolina
Rick W. Allen, Georgia               Mark DeSaulnier, California
Jason Lewis, Minnesota               Donald Norcross, New Jersey
Francis Rooney, Florida              Lisa Blunt Rochester, Delaware
Paul Mitchell, Michigan              Raja Krishnamoorthi, Illinois
Tom Garrett, Jr., Virginia           Carol Shea-Porter, New Hampshire
Lloyd K. Smucker, Pennsylvania       Adriano Espaillat, New York
A. Drew Ferguson, IV, Georgia
Ron Estes, Kansas
Karen Handel, Georgia

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Jared Polis, Colorado
David P. Roe, Tennessee                Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Raul M. Grijalva, Arizona
Luke Messer, Indiana                 Marcia L. Fudge, Ohio
David Brat, Virginia                 Suzanne Bonamici, Oregon
Tom Garrett, Jr., Virginia           Susan A. Davis, California
Karen Handel, Georgia 
Frederica S. Wilson, Florida
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 13, 2017....................................     1

Statement of Members:
    Polis, Hon. Jared, Ranking Member, Subcommittee on Early 
      Childhood, Elementary, and Secondary Education.............     3
        Prepared statement of....................................     5
    Rokita, Hon. Todd, Chairman, Subcommittee on Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Brown Barnes, Ms. Cindy, Director of Education Workforce and 
      Income Security, Government Accountability Office..........     7
        Prepared statement of....................................     9
    Harris, Ms. Pamela, President and CEO, Mile High Montessori 
      Early Learning Centers.....................................    43
        Prepared statement of....................................    45
    Maas, Ms. Ericca, Executive Director, Close Gaps By 5........    50
        Prepared statement of....................................    52
    Stevens, Dr. Katharine, Resident Scholar, Education Policy 
      Studies, American Enterprise Institute.....................    29
        Prepared statement of....................................    31

Additional Submissions:
    Mr. Polis:
        The Head Start Advantage.................................    73
        Article: Head Start: Keeping It Real.....................    82


                   OPPORTUNITIES FOR STATE LEADERSHIP



                      OF EARLY CHILDHOOD PROGRAMS

                              ----------                              


                        Thursday, July 13, 2017

                        House of Representatives

               Committee on Education and the Workforce,

  Subcommittee on Early Childhood, Elementary, and Secondary Education

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Garrett, Handel, Polis, 
Fudge, Bonamici, Davis, and Wilson.
    Also Present: Representatives Foxx, and Scott.
    Staff Present: Michael Comer, Press Secretary; Kathlyn Ehl, 
Professional Staff Member; Amy Raaf Jones, Director of 
Education and Human Resources Policy; Nancy Locke, Chief Clerk; 
Kelley McNabb, Communications Director; James Mullen, Director 
of Information Technology; Krisann Pearce, General Counsel; 
Mandy Schaumburg, Education Deputy Director and Senior Counsel; 
Michael Woeste, Press Secretary; Tylease Alli, Minority Clerk/
Intern and Fellow Coordinator; Austin Barbera, Minority Press 
Assistant; Jacque Chevalier, Minority Director of Education 
Policy; Denise Forte, Minority Staff Director; Mishawn Freeman, 
Minority Staff Assistant; Carolyn Hughes, Minority Director 
Health Policy/Senior Labor Policy Advisor; Kevin McDermott; 
Minority Senior Labor Policy Advisor; Alexander Payne, Minority 
Education Policy Advisor, and Veronique Pluviose, Minority 
General Counsel.
    Chairman Rokita. Good morning. A quorum being present the 
Subcommittee on Early Childhood, Elementary, and Secondary 
Education will come to order. Welcome to today's subcommittee 
hearing. I would like to thank our panel of witnesses and my 
colleagues for joining today's important discussion on the 
effectiveness of early childhood education programs.
    You know, a child's early development lays critical 
groundwork for he or she to succeed in the future. So, while a 
parent is the ultimate decider of what is best for their own 
children's early development the federal government has had a 
role in child care for over 50 years.
    With enactment of the Head Start Act in 1965, a byproduct 
of President Lyndon Johnson's war on poverty, the federal 
government established its role helping promote healthy 
development of vulnerable children in their earliest and 
arguably most important years.
    While Head Start provided greater access to early childhood 
education for vulnerable family, like many Johnson-era programs 
the federal government's involvement in this space has 
mushroomed into an overly burdensome, costly, and confusing 
network or program.
    Today, GAO will testify on their new report which finds the 
federal government provides support for early childhood 
services through 44 separate programs, nine of which have an 
explicit purpose to do so at an annual cost of more than $15 
billion. The two largest are the Head Start and the Child Care 
and Development Block Grant programs, and we will hear that the 
agencies have done a better job at improving their 
communications and operating these programs, but that overlap, 
duplication, and fragmentation among the programs, 
unfortunately, remains.
    Finding an early childcare or education program is an 
important decision for many working parents and families. The 
federal government should not be making the job of navigating 
the system even more difficult through a confusing maze of 
federal programs. Luckily for parents, states have stepped up 
to the plate.
    Recently we have seen states take the lead in operating 
early childhood programs, as well as increased funding for this 
area. For example, my home state in Indiana has launched a 
promising new pilot program aimed at helping low income Hoosier 
children access a free, high-quality pre-K education.
    In 2016 alone states increased funding by a combined $480 
million in early childhood programs. Now, this is an increase 
of 6.8 percent from the previous year.
    Now, we will hear today, I assume, examples of how states 
are finding a better way for children and are helping small 
businesses innovate and improve their services to their 
employees. States have recognized that they are better 
positioned to help parents when it comes to choosing the 
services that are best for their child.
    And now for those of us that want to see the federal 
government take a diminished role in deciding what is best for 
our children in terms of education I think this is excellent 
news. States understand their local communities best and 
understand what works and what does not work for their children 
and their parents within the state.
    So, today we will hear about the positive impacts of state-
centered early childhood programs. Additionally, we will hear 
testimony on just how large and cumbersome federal involvement 
has become. I hope this conversation will help us consider how 
we might address the redundancies and inefficiencies throughout 
these programs. In short, I hope the conversation is 
constructive and productive.
    Early childhood development is a critical issue because we 
are talking about the future students, future citizens, and 
future leaders in the workforce. In short, our best assets. At 
the same time, we have a responsibility to reevaluate the 
current climate and make sure the tax payer investments are 
being used effectively.
    I look forward to a discussion about the ways we can better 
meet the needs of American children, families, and taxpayers 
alike. So with that, I know recognize Ranking Member Polis for 
his opening remarks.
    Mr. Polis?
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning, and welcome to today's subcommittee hearing. I'd like 
to thank our panel of witnesses and my colleagues for joining today's 
important discussion on the effectiveness of our early childhood 
education programs.
    A child's early development lays critical groundwork for he or she 
to succeed in the future.
    While a parent is the ultimate decider of what is best for their 
own child's early development, the federal government has had a role in 
childcare for over 50 years.
    With enactment of the Head Start Act in 1965, a by-product of 
President Lyndon Johnson's War on Poverty, the federal government 
established its role helping promote healthy development of vulnerable 
children in their earliest--and arguably--most important years.
    While Head Start provided greater access to early childhood 
education for vulnerable families, like many Johnson-era programs, the 
federal government's involvement in this space has mushroomed into an 
overly-burdensome, costly, and confusing network of programs.
    Today, GAO will testify on their new report which finds the federal 
government provides support for early childhood services through 44 
separate programs, nine of which have an explicit purpose to do so at 
an annual cost of more than $15 billion. The two largest are the Head 
Start and the Child Care and Development Block Grant programs. We will 
hear that the agencies have done a better job at improving their 
communications in operating these programs, but that overlap, 
duplication, and fragmentation among programs remain.
    Finding an early childcare or education program is an important 
decision for many working parents and families. The federal government 
should not be making the job of navigating the system more difficult 
through a confusing maze of federal programs.
    Luckily for parents, states have stepped up to the plate. Recently, 
we have seen states take the lead in operating early childhood 
programs, as well as increase funding for this area. For example, my 
home state of Indiana has launched a promising new pilot program aimed 
at helping low-income Hoosier children access a free, high-quality pre-
k education.
    In 2016 alone, states increased funding by a combined $480 million 
in early childhood education programs. This is an increase of 6.8 
percent from the previous year.
    We will hear today examples of how states are finding a better way 
for children, and are helping small businesses innovate to improve 
their services.
    States have recognized that they are better positioned to help 
parents when it comes to choosing the services that are best for their 
child.
    For those of us who want to see the federal government take a 
diminished role in deciding what is best for our children in terms of 
education, this is excellent news.
    States understand their local communities best, and understand what 
works and does not work for the children and parents within the state.
    Today, we will hear about the positive impacts of state centered 
early childhood programs.
    Additionally, we will hear testimony on just how large and 
cumbersome federal involvement has become. I hope this conversation 
will help us consider how we might address the redundancies and 
inefficiencies throughout these programs.
    Early childhood development is a critical issue because we are 
talking about future students, future citizens, and future leaders in 
the workforce. At the same time, we have a responsibility to re-
evaluate the current climate and make sure that taxpayer investments 
are being used effectively. I look forward to a discussion about the 
ways we can better meet the needs of American children, families, and 
taxpayers alike.
                                 ______
                                 
    Mr. Polis. Thank you, Mr. Chairman. I cannot emphasize 
enough the importance of this hearing highlighting the 
importance of early childhood programs. Support for our 
investment in making quality early childhood education a 
reality for every child in our country has broad support from 
across the political spectrum because it simply makes sense.
    As a father of a three- and a 5, year-old I get to see this 
firsthand at home every day. Support for early childhood 
education expands across the ideological spectrum. According to 
a recent poll 82 percent of Republicans and 97 percent of 
Democrats believe we should make quality early education more 
prevalent.
    It is not just the public who sees the benefit. The 
academic and research side results are also completely clear. 
The advantages of high-quality early childhood education 
include higher graduation rates, improved job outcomes, longer 
life expectancies, lower rates of criminal acts, higher 
attendance, and greater academic achievement.
    Noble Prize winning economist James Heckman estimates that 
society receives $7.30 in benefits for every dollar invested in 
high-quality early learning programs for at risk kids. But 
despite the nearly unanimous findings about the value of early 
learning our country continues to rank third to last among 
developed nations for enrollment of three- to 5- year-olds.
    As law makers, I hope that my colleagues join me in finding 
this unacceptable. The lack of access to early childhood 
education is something we experience firsthand in Colorado. The 
Colorado Preschool Program, or CPP, helps provide preschool for 
at-risk kids in our state, but has a very limited number of 
slots.
    Students enrolled in our Colorado Preschool Program come 
from low income families or dual language learners or in foster 
care or of another variety of high-risk factors, and compared 
to their peers who do not participate in our preschool program, 
the Colorado Preschool Program students are much less likely to 
be held back and more likely to perform well in school, even 
years after preschool.
    And while our Colorado Preschool Program is an important 
step, and it is opening the door for many families, it is not 
nearly enough. Our Colorado Department of Education estimated 
that over 8,000 at risk four year olds had no preschool 
available to them through CPP or Head Start, and many more 
middle class and non-at-risk kids also did not have those 
opportunities.
    Overall, in our state, only about half of our four year 
olds are in preschool. The lack of availability and the rising 
costs of childcare hits working families especially hard; 
parents who cannot afford or do not have access to high-quality 
childcare. I represent a district with two, large four-year 
universities and many community colleges, and I hear many 
stories of college students who have children who struggle to 
find childcare for their kids.
    Strong investments at the local, state, and federal level 
in early learning will make an enormous positive difference for 
our economy, for our future, and for the children. Fortunately, 
at the state level both red and blue governors agree on the 
benefits of early childhood education. The National Governors 
Association included early learning support and investment in 
its platform for the very first time.
    In many states, including states led by both Republican and 
Democratic governors are making bold investments in early 
learning with the support of federal programs like Preschool 
Development Grants.
    These states look at the data and are making sound 
decisions knowing that the data shows that the early years of a 
child's life truly lay the foundation for success in later 
years. They also see the federal government as an important 
partner in efforts to expand access to quality early childhood 
learning and improve life outcomes.
    Frankly, the debate about the efficacy of early learning is 
over. It is simply undeniable that high-quality early childhood 
education has lifelong benefits for kids. So, together, we now 
need to think creatively about how we can further support, 
expand, grow quality of early learning, creating more 
opportunities for children and for families across our country.
    I want to thank the witnesses for taking time out of their 
day to join us to help improve the knowledge of this committee, 
and I look forward to hearing about what more the federal 
government can do to help improve access to early learning 
opportunities, and I yield back.
    [The statement of Mr. Polis follows:]

Prepared Statement of Hon. Jared Polis, Ranking Member, Subcommittee on 
          Early Childhood, Elementary, and Secondary Education

    Thank you, Mr. Chairman for holding today's hearing. Support for 
public investment to make quality early childhood education a reality 
for every child has broad support from across the political spectrum. 
As a father of a three and five year old this is not merely a partisan 
issue, but a personal one.
    According to a 2017 poll sponsored by the First Five Years Fund, 
82% of Republicans and 97% of Democrats believe that we should make 
quality early education more affordable and prevalent.
    It's not just the public who sees the benefits of early learning, 
the extensive research is clear too. The advantages of high-quality 
early childhood education include higher graduation rates, improved job 
outcomes, and longer life expectancies. Long-term, Nobel Prize-winning 
economist James Heckman estimates society receives $7.30 in benefits 
for every $1 invested in high-quality early learning programs.
    Despite the nearly unanimous findings about early learning, our 
country ranks third-to-last amongst all developed nations for 
enrollment of three- to five-year olds. As lawmakers we should all find 
these results absolutely unacceptable.
    The lack of access to early childhood education is something we've 
experienced firsthand in my home state of Colorado. The Colorado 
Preschool Program, or CPP, helps provide preschool for at-risk kids in 
our state.
    Students enrolled in CPP are those who may come from low-income 
families, are dual language learners, are in foster care, or a range of 
other factors. Compared to their peers who don't participate in CPP, 
CPP students are less likely to be held back and more likely to perform 
well in school even years after preschool.
    CPP is an important step, and it's opening doors for families 
across our state. But it's not enough. The Colorado Department of 
Education predicts that nearly 8,400 at-risk four-year olds had no 
preschool available to them through CPP or Head Start in the 2015-16 
school year.
    For those 8,400 four-year olds, it's simply not fair that they 
won't have the same access and opportunity because there aren't enough 
slots in our system.
    Overall, only half of Colorado's three- and four-year olds are in 
preschool.
    The lack of availability and the rising cost of childcare hits 
working families especially hard. Many parents can't afford or don't 
have access to high-quality childcare. I represent several large four-
year universities and community colleges in my district. I've heard 
countless stories of college students who have children who struggle to 
find the childcare their kids need.
    Strong investments - at the local, state, and federal levels - in 
early learning will make an enormous positive difference for our 
future. But President Trump is running in the other direction. His 
administration proposes to cut hundreds of millions of dollars in 
federal funding for early childhood education.
    Fortunately at the state level, both red and blue state governors 
agree on the benefits of early childhood education. The National 
Governors Association, for the first time, included early learning 
support and investment in its platform. And many states, those led by 
both Republican and Democratic governors, are making bold investments 
in early learning with the support of federal programs like preschool 
development grants. These states know that the early years of a child's 
life lay the foundation for success in later years. They also know that 
the federal government is a partner, not a burden, in efforts to expand 
access to quality early learning and improve life outcomes.
    The debate about the efficacy of early learning is over. It's 
undeniable that high-quality early childhood education has lifelong 
benefits for kids. Together, we should think creatively about how we 
can further support early learning and create more opportunities for 
more children.
    I thank the witnesses for taking time out of their day to come 
testify and look forward to hearing from them about what more the 
federal government can do to ensure all children have access to 
quality, affordable, early learning opportunities.
    I yield back.
                                 ______
                                 
    Chairman Rokita. I thank the gentleman. I would now like to 
turn to the introduction of our distinguished witnesses. First, 
Ms. Cindy Brown Barnes is director with the Education Workforce 
and Income Security Team at the Government Accountability 
Office. Welcome, Ms. Barnes.
    Dr. Katharine Stevens is a resident scholar in education 
policy studies at the American Enterprise Institute. Welcome, 
as well, Doctor.
    And I will now turn to Mr. Polis again to introduce our 
next witness.
    Mr. Polis. We are very excited to have Dr. Pamela Harris 
with us who is the president and CEO of Mile High Learning 
Center, Denver's largest and oldest provider of early care and 
education in Denver. They reach over 9,000 children annually 
with high-quality learning centers and community outreach, 
including parents. She has over 25 years of experience in 
education with a focus on early childhood and vulnerable 
populations.
    She has directed Head State Grantee and Delegate programs, 
most recently received an Early Head Start and Child Care 
Partnership grant. Dr. Harris was also instrumental in 
developing Colorado's early learning and development guidelines 
and the state's Early Childhood Workforce Plan 2020, and we are 
excited to welcome her here today.
    Chairman Rokita. I thank the gentleman, and not to be 
outdone, and finally, Ms. Ericca Maas is the executive director 
of Close Gaps by 5 which seems self-explanatory. I am sure we 
are going to hear even more about your program.
    I now ask our witnesses to each raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Okay. Let the record reflect that each witness nodded in 
affirmation.
    [Witnesses sworn]
    Chairman Rokita. Before I recognize each of you to provide 
your testimony let me briefly explain the lighting system, and 
it goes just as much as a reminder for us up here as it does 
for you. You each have 5 minutes to present your testimony. 
When you begin, of course, the light will turn green. When you 
have one minute left it will be yellow, and when it is red that 
means I will start gaveling you, so please try to wrap it up, 
and that goes the same for 5 minutes of questioning up here.
    So, with that I would like to recognize Ms. Barnes for 5 
minutes.

TESTIMONY OF CINDY BROWN BARNES DIRECTOR OF EDUCATION WORKFORCE 
     AND INCOME SECURITY, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Brown Barnes. Chairman Rokita, Ranking Member Polis, 
and members of the subcommittee I am pleased to be here to 
discuss the report we are issuing today on federally funded 
early learning and childcare programs. Millions of children age 
5 and under participate each year in federally funded 
preschool, other early learning programs, or childcare.
    Historically, early learning program focus on preparing 
young children for school. In contrast, childcare programs 
subsidize these costs for low income parents who worked. Over 
time, the distinction between these two types of programs has 
blurred somewhat as policymakers seek to make educationally 
enriching care available to more young children.
    Today I will cover one, the number and funding of programs 
that comprise the federal investment in early learning and 
childcare. Two, the extent to which these programs are 
fragmented, overlap, or are duplicative, and the efforts 
agencies have made to address these conditions, and three, what 
is known about program performance.
    Today's report updates previous work we did on this topic 
in 2012 and in 2014. Overall, we identified 44 programs and 
three tax expenditures that may provide or support early 
learning or childcare. While the overall number is similar to 
our 2012 review there are several differences due to such 
factors as programs ending or beginning in the intervening time 
period.
    As shown on the figure on the monitor, nine of the 44 
programs have an explicit purpose of providing early learning 
or childcare services. That is these services are part of their 
main mission. Seven of these programs focus on early learning, 
and two focus on childcare.
    In fiscal year 2015 these programs received about $15 
billion in federal funds. Some are very large, such as Head 
Start, which obligated nearly $9 billion that year. While most 
others are smaller and obligated less than $500 million each. 
The remaining 35 programs do not have an explicit early 
learning or childcare purpose, but permit funds to be used for 
such services.
    For example, worker development programs authorized by the 
Workforce Innovation and Opportunity Act can pay for childcare 
to enable participants to attend these activities, and the 
Child and Adult Care Food Program provides nutrition assistance 
to young children in different settings.
    Regarding the extent of fragmentation, overlap, and 
duplication in early learning and childcare the federal 
investment is fragmented, meaning that these programs are 
administered by multiple federal agencies. They are 
concentrated within the Departments of Education and Health and 
Human Services, but three other agencies, six and one federal 
state commission are also involved.
    Further, some of these programs overlap one another, 
meaning they have similar goals and target similar groups of 
children. For example, four of the nine programs with an 
explicit early learning and childcare purpose target low income 
children. However, overlap among programs is limited for a 
number of reasons.
    For example, some programs target very specific 
populations, fund different types of activities, or support 
early learning or childcare for young children by providing 
food, materials, or other services rather than early learning 
or childcare itself. It is harder to tell whether these 
programs are duplicative. That is whether they provide the same 
services to the same beneficiaries.
    This is because of the many different ways the programs are 
structured, the wide range of allowable uses for the funds, and 
in some cases the limited data on services provided. Also, the 
eligibility requirements differ among programs, even for 
similar subgroups of children such as those from low income 
families.
    However, HHS and Education have helped mitigate the effects 
of fragmentation and overlap through improved agency 
coordination and have followed leading practices for inner-
agency collaboration. For example, in response to needed 
actions GAO identified in 2012, HHS and Education expanded 
membership of their interdepartmental workgroup on young 
children to other agencies with early learning and childcare 
programs.
    The agencies have also documented their agreements, 
dedicated staff time to promote the goals and activities of 
this workgroup, and issued joint policy statements.
    In terms of program performance, we found that agencies 
assess performance for all nine programs with an explicit early 
learning or childcare purpose. Additionally, many programs 
examine common aspects of performance such as school readiness.
    In conclusion, multiple agencies administer the federal 
investment in early learning and childcare and have improved 
their coordination of these programs. Thank you. I would be 
happy to respond to any questions you may have.
    [The testimony of Ms. Brown Barnes follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
            
    Chairman Rokita. Thank you, Ms. Barnes. Dr. Stevens, you 
are recognized for 5 minutes.

  TESTIMONY OF KATHARINE STEVENS, RESIDENT SCHOLAR, EDUCATION 
         POLICY STUDIES, AMERICAN ENTERPRISE INSTITUTE

    Ms. Stevens. Chairman Rokita, Ranking Member Polis, and 
distinguished members of the subcommittee thank you for 
convening today's hearing on opportunities for state leadership 
of early childhood programs. My name is Katharine Stevens and I 
am a resident scholar in education policy studies at the 
American Enterprise Institute where I lead AEI's early 
childhood program.
    My research is focused on the science of brain development 
and its implications for early care and education policy, 
especially the role of early learning in expanding opportunity 
for low income Americans. The views I offer today are mine 
alone.
    Before my current position at AEI, I worked for nine years 
in higher education, followed by 15 years in K-12 school 
reform. Having worked at every level of the education 
continuum, I have come to believe that early childhood is 
perhaps the most exciting and crucial area of U.S. domestic 
policy. So, it is a special honor for me to testify before the 
subcommittee today on this topic.
    As is now widely known, a growing body of scientific 
research has established that the first 5 years of life are the 
most crucial period of human development. What we also know is 
that the education process is cumulative. Each stage builds on 
the prior one, and research shows that, in fact, gaps between 
higher and lower income children emerge long before children 
start school.
    Many children enter school unprepared to succeed and 
research shows that schooling, largely, does not close those 
initial gaps. Improving the well-being of America's youngest, 
most vulnerable children is crucial to both their life chances 
and our nation's future. Yet, even as science underscores the 
importance of early childhood, federal policy has lagged 
behind.
    Since 1935 the federal government has supported early care 
and education for poor children and still has a critical role 
but the policy making legacy of the past 80 years has left us 
with two core problems. The first problem is that integrating 
disparate federal funding streams to best serve children and 
family at the state and local levels is difficult, at best, and 
often impossible.
    Not all states are equally committed to improving early 
care and education. But those that are working hard to do so 
find their efforts hampered by current federal policy.
    The second problem is that federal programs strongly 
reflect the commonly made, but false distinction between 
childcare and early education. Research has established that 
young children are continuously and rapidly learning wherever 
they are and from whomever they are with starting at birth.
    We have long thought of school as where children learn, but 
the reality is that every environment, whether home, school, or 
childcare is a learning environment for young children. In 
fact, childcare is unique among early childhood programs 
precisely because it serves multiple purposes. By promoting the 
complementary aims of adult responsibility and self-sufficiency 
on the one hand, and healthy child development on the other, 
childcare offers a valuable strategy for two generation human 
capital development in America's most disadvantaged 
communities.
    We know that family and child well-being are inextricably 
linked. Indeed, today's early care and education programs must 
have two purposes: supporting parents' work in a 24/7 economy 
and advancing children's healthy growth and learning during the 
most crucial period of human development. But current federal 
policy fails to realize the significant potential of this dual 
generation approach to help children and their parents move 
ahead at the same time.
    Federal early childhood programs still play a key role in 
addressing inequality of opportunity and lack of economic 
mobility for disadvantaged children. But the context has 
changed enormously since our major federal early childhood 
programs were first put into place.
    Unlike half a century ago, today the strongest leadership 
in early childhood is emerging from forward looking states. The 
best path now for federal policy is to build on this growing 
state momentum by identifying, supporting, and highlighting the 
work of leading innovative states.
    Our goal should be to amplify the impact of currently 
siloed programs aiming to build states' capacity to support low 
income working families and give American's most vulnerable 
young children the strong start they need to thrive.
    In closing, I appreciate the opportunity to provide 
testimony before this subcommittee on such an important topic. 
I look forward to your questions.
    [The testimony of Ms. Stevens follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Rokita. Thank you, Doctor. Dr. Harris, you are 
recognized for 5 minutes.

   TESTIMONY OF PAMELA HARRIS, PRESIDENT AND CEO, MILE HIGH 
               MONTESSORI EARLY LEARNING CENTERS

    Ms. Harris. Thank you and good morning Chairman Rokita, 
Ranking Member Polis, and members of the committee. Thank you 
for inviting me to testify today about early childhood 
programs. As Mr. Polis said, I am an early childhood education 
provider in Denver and we work in the most impoverished 
neighborhoods there.
    We have an enormous responsibility. Children are born with 
100 billion neurons. That is as many stars as are in the Milky 
Way, and it is through interactions with responsive, caring 
adults that children thrive. Eighty-five percent of brain 
development occurs before a child even enters kindergarten and 
delays in development appear as early as 9 months old. And if a 
child is not reading proficiently in third grade, they are four 
to six times less likely to graduate high school.
    Reaching children in their critical years, as you have 
heard, is very important and it is federal early learning 
programs that target unique populations or specific needs that 
are complementary and not duplicative help us do our work.
    We serve 384 Head Start and Early Head Start children and 
our families live in poverty. By using Head Start's whole child 
approach, focusing on cognitive, physical, social, and 
emotional development while supporting their families we can 
really make a difference and this shows in our school readiness 
for our children.
    In the fall, only 60 percent of our children are meeting 
developmental levels, but by the end of the year, more than 90 
percent are meeting those same benchmarks. Head Start is really 
the original two generation program, and its model, federal to 
local funding, allows programs to be responsive to the specific 
needs of their community.
    We have seven early learning centers. One serves 
predominantly Spanish speaking families. One serves refugee 
families who speak over 20 languages, and one is in a 
historically black neighborhood impacted by gentrification.
    Across Colorado, Head Start programs in rural and farming 
communities, in the mountains, and on the plains in Western 
Slope, and Eastern plains they are working locally to 
collaborate and leverage services to meet the needs of their 
specific families.
    Through the federal Early Learning Challenge grant that 
Colorado was awarded, we developed a quality rating and 
improvement system for licensed childcare providers using Head 
Start performance standards as quality indicators. One hundred 
and sixty families in my program access childcare subsidies 
through the Childcare Development Block Grant, CCDBG, while 
they are working or going to school to improve their families' 
lives. And in Colorado, the state has invested additional 
funding for subsidies to serve infants and toddlers.
    IDEA provides funding for early intervention services for 
children birth to 5. Approximately 15 percent of our children 
enrolled have disabilities and we partner with our school 
district to support toddlers with delays as they transition to 
preschool. And the most recent federal changes in Head Start 
and CCDBG continue to ensure and emphasize high-quality 
services for children and families.
    However, gaps in ensuring access exist. While subsidies 
help defray the cost of childcare they do not meet the full 
cost and do not support parents working non-traditional 
schedules. And due to low wages, there is a severe shortage of 
early childhood teachers; turnover rates average 30 percent.
    Colorado's Early Childhood Leadership Commission, our 
statewide advisory board, with Departments of Education and 
Human Services just published an ambitious early childhood 
workforce plan to address these issues. The bipartisan Every 
Student Succeeds Act encourages greater coordination within 
states, requiring local educational agencies to develop 
agreements with Head Start.
    Our state plan aligns early childhood competencies for 
educators who are working with children from birth through age 
eight. And we have also benefited with Colorado within the 
Departments of Human Services and Education and our Head Start 
Collaboration Office. By successfully coordinating these 
federal programs at the state and local levels, Colorado has 
been better able to address our access and quality gaps.
    From discussions over the years with my colleagues from 
other states. it is evident that the systemic collaboration has 
had similar, positive effects across the country. The benefits 
of high-quality early care and education and Head Start are 
clear: high rates of high school graduation, attendance at 
college, greater income levels, decreased need for special 
education services.
    The true importance of our work is making sure children 
reach their full potential and are contributing members to 
their communities. Thank you.
    [The testimony of Ms. Harris follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairman Rokita. Thank you, Dr. Harris. Ms. Maas, you are 
recognized for 5 minutes.

 TESTIMONY OF ERICCA MAAS, EXECUTIVE DIRECTOR, CLOSE GAPS BY 5

    Ms. Maas. Thank you. Good morning Mister Chair and members. 
My name is Ericca Maas. I am the executive director of a 
Minnesota based nonprofit organization called Close Gaps by 5. 
We champion the use of targeted early education to close 
Minnesota's achievement gaps before children enter 
kindergarten.
    Our approach has come to be known by some as the Minnesota 
model for early learning. Beginning 11 years ago this model was 
developed, piloted, and refined by a business-led nonprofit 
called the Minnesota Early Learning Foundation or MELF. MELF 
sunsetted in 2011; Close Gaps by 5 continues to advocate for 
the implementation of its recommendations.
    MELF set out to design an early learning model that 
specifically addressed achievement gaps. Minnesota has some of 
the worst achievement gaps in the nation. The workforce 
benefits of closing those gaps are of particular interest to 
the business and community leaders supporting this effort.
    MELF raised $20 million in private funds and rejected 
appropriated government funds so it could be an independent, 
honest broker in the debate. MELF used the funding to pilot and 
evaluate an approach based on best available research with 
pointed to the following core principles: start early, target 
resources, empower parents, and insist on quality.
    The approach that MELF proved effective has since been 
expanded state-wide with help of Governor Mark Dayton, 
bipartisan members of the Minnesota Legislature, and a federal 
Race to the Top Grant.
    The market-based Minnesota model has two primary 
components. The parent-aware quality rating and improvement 
system which provides good information, helping parents make 
informed choices, and early learning scholarships would provide 
resources to families who need them most.
    Here is how it works. Imagine you are a low income parent 
in Minnesota. Because of your circumstances your child is at 
high risk of falling into gaps, but you cannot afford high-
quality early learning. Now, imagine that you learn your child 
is getting one of about 10,000 early learning scholarships 
awarded each year. This scholarship can change the trajectory 
of your child's life. Your scholarship empowers you. It opens 
the doors to any one of 3,000 proven, high-quality programs 
that are based in schools, Head Starts, childcare centers, 
churches, nonprofits, and homes.
    Rather than having someone else tell you what to do, you 
pick a program that fits your family's needs, your preferred 
location, schedule, cultural connections, and teaching 
approach. Importantly, the act of making that choice engages 
you in your child's learning right from the start.
    The only requirement is that your scholarship has to be 
used at a program that is using kindergarten readiness best 
practices, as measured by the consumer report-style Parent 
Aware rating system. Beyond the ratings, Parent Aware also 
helps small childcare programs learn to adapt to those 
kindergarten readiness best practices.
    Parent Aware is a completely voluntary program. It works on 
a reward system, not with mandates. We are continually working 
to refine this model, but the early results are encouraging. 
Minnesota children in Parent Aware programs are making 
significant gains in kindergarten readiness measures such as 
phonics, executive function, vocabulary, social competence, and 
early math skills. Low income children are making even larger 
gains than their higher income counterparts. We are headed in 
the right direction.
    In addition to the benefits for children, the model is 
helping a struggling childcare sector tap into a larger, new 
group of scholarship empowered customers, adopt best practices, 
and market improvements to a customer base that now has a new 
and deeper appreciation of the need for quality early 
education.
    Particularly for mom and pop type businesses who tend to 
struggle the most, all of this offers a helpful economic shot 
in the arm. We also see other important benefits that I have 
addressed in my written statement.
    Finally, let me just say that Minnesota's early education 
debate has focused on whether to invest in this flexible 
scholarship-based approach or in a more rigid, universal pre-K 
model. Specifically, there is a focus on the extent to which 
each of those approaches is aligned to the research-based cored 
principles I described at the beginning of my remarks.
    Minnesota's achievement gaps was a huge threat to our 
economy, children, and communities. To address those gaps 
research says we need solutions that start early, are targeted, 
empower parents, and demand quality. The scholarship and Parent 
Aware approach meets those tests; universal pre-K falls far 
short.
    It is for this reason that we continue to be strong 
advocates for the Minnesota model. I have provided more detail 
about this debate in my written statement as well.
    In conclusion, you know, this is the model that we have 
moved forward with in Minnesota. Scholarships open doors in a 
flexible, empowering way. Parent Aware ensures quality 
improvement through rewards rather than mandates, and the 
winners are small businesses, our most vulnerable children, and 
our state's economy. I am happy to answer any questions that 
you have. Thank you.
    [The testimony of Ms. Maas follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Rokita. Well, thank you, Ms. Maas. We will now 
turn to member questions and any statements. And I would first 
like to recognize the Chairwoman of the full committee, Dr. 
Foxx, for 5 minutes.
    Ms. Foxx. Thank you, Chairman Rokita, and I want to thank 
all of our witnesses for being here today and sharing their 
expertise with us.
    Ms. Barnes, welcome back to the Education and Workforce 
Committee. You testified there is a limited overlap in 
duplication of federal early childhood programs. The graph you 
showed claimed that Head Start and Child Care and Development 
Fund programs serve different purposes. However, your testimony 
states that quote, 'historically early learning and childcare 
programs existed separately with separate goals, but over time 
the distinction between these two types of questions has 
blurred somewhat as policy makers seek to make educationally 
enriching care available to more children.'
    If your findings indicate these programs' distinctions have 
blurred then in a practical sense does the difference between 
overlap or duplication matter? And as Dr. Stevens suggests, 
shouldn't policy makers look at the breadth of these programs 
in totality to determine the best use of tax payers' funds in 
this space?
    Ms. Brown Barnes. Again, the overlap refers to programs 
with the similar goals, activities, or target populations. An 
example of both activities and target populations overlapping 
would be Head Start and preschool development grants which 
target both of them, low income children under 5 and provide 
slots for early learning.
    An example of programs that provide the same types of 
activities are the Early Intervention Program for Infants, and 
the preschool grants for children with disabilities. These 
programs provide special education services, both of them, but 
they target different ages to children 5 and under.
    In terms of duplication, it is difficult to determine if 
programs are actually duplicative because they would serve the 
same beneficiaries and provide the same exact services. Our 
report discusses how there is the potential for the 
duplication.
    Ms. Foxx. Thank you. Having worked on these issues when I 
was in the state as the president of a community college who 
built a childcare center on our campus and then worked in the 
legislature and served on Smart Start Board in North Carolina, 
I have always been concerned about the duplication and also the 
expenditures in administrative cost.
    I worry a great deal about how much money we spend on 
administrative cost as opposed to monies going directly into 
services. Dr. Stevens, maybe you can help clarify things from a 
more realistic standpoint.
    You testified that any setting a child is in, whether it be 
their home, a childcare center, or a preschool is inherently 
both caring for and educating that child. And I remember very 
well the head of Smart Start in North Carolina telling me long 
ago when children are playing they are learning. That their 
play is their work and their learning.
    Do you agree that we should not focus on whether the 
programs are overlapping or duplicative, but instead consider 
all of the programs as inherently serving the same purpose of 
caring for and educating children?
    Ms. Stevens. One of the things that I find most exciting 
about this area of policy, the area of early care and education 
there is no other area of policy that I know of that has such a 
strong body of science that so clearly points us in the right 
direction. And to me, that is where we need to be starting.
    So, what the science is telling is very clearly is that 
from the moment of birth children are learning continuously and 
rapidly wherever they are and from whomever they are with. It 
does not matter what we call it. It does not matter what 
funding stream is. It does not matter what building it is 
occurring in. We cannot stop them from learning.
    So, the question is only the quality of that environment. I 
think the best way for us to be thinking about this is 
ultimately from a child-centered point of view. Focusing 
starting at birth which is when the most--there are 4 million 
infants, 4 million children every single year begin and end 
their infancy, and what we know from science is that is the 
most critical period of learning.
    So, the bottom line is we need to be relying on the science 
to be making these decisions.
    Ms. Foxx. Thank you. Thank you, Mr. Chairman. I yield back.
    Chairman Rokita. I thank the Chairlady. Mr. Polis, you are 
recognized.
    Mr. Polis. Point of Parliamentary inquiry.
    Chairman Rokita. Go ahead.
    Mr. Polis. I wanted to ask whether the GAO report which was 
literally just made available to the Democrats and was not made 
available 48 hours ahead of the appearance of this hearing, 
whether the delay in the delivery of that is a violation of 
Rule 7 Subsection D?
    Chairman Rokita. I think the gentleman for his inquiry. It 
is not.
    Mr. Polis. Okay. If I may speak to the Parliamentary 
inquiry for a moment briefly. I just want to express the 
dissatisfaction of the Democrats and we obviously are not ready 
to discuss the GAO report because we have not read it. It was 
literally just made available moments ago. So, perhaps there 
can be a future hearing and that addresses, of course, much of 
Ms. Barnes testimony.
    We are happy to engage on the other topics, but, obviously, 
we have not had a chance to read this yet.
    Chairman Rokita. Noted. Do you have questions? You are 
recognized for 5 minutes.
    Mr. Polis Dr. Harris, thank you again for being here again 
today from Colorado and everything you do for Colorado's 
children as a practitioner.
    As you know, in Colorado we do not have full day 
kindergarten for all of our students. Now, we have made 
progress in recent years. It is my understanding about 77 
percent of kindergartners are attending full day. Many parents 
pay for that, of course. Those that do have access either live 
in communities that have full day kindergarten, they pay for it 
either through their own tax revenue or just out of pocket in 
tuition.
    That being said, there are still over 20,000 kindergartners 
that are not enrolled in full day. Mile High Learning serves 
some of the neediest students in Denver. Do most of your 
students make a seamless transition to a full day kindergarten?
    Ms. Harris. Yes.
    Mr. Polis. And statewide, is there a similar picture or are 
there inconsistencies across our patchwork or communities 
across our state?
    Ms. Harris. Thank you, Mr. Polis. There is inconsistency 
actually across the state. There has been a commitment to try 
to get full day K. In Denver we have a great relationship with 
Denver public schools, so most of our children do transition to 
full day kindergarten.
    Mr. Polis. What can be done to support the continuity 
between early learning and K-12? What more can we do in our 
state and nationally?
    Ms. Harris. So, part of the ESSA is to do those kinds of 
coordination, so really to align what is happening in early 
childhood with what is happening in our local educational 
agencies and one specific is to help with transitions. So, as 
children are coming into public school, into kindergarten after 
finishing preschool that there are activities, professional 
development for staff.
    There are a number of things and it is really looking at 
the continuum of childcare from birth to eight, and thinking of 
professionals who are in the workforce as professionals.
    Mr. Polis. And along those lines, you mention in your 
testimony the shortage of high-qualified early childhood 
education teachers. You referenced the average compensation of 
around $11 an hour. We all know how hard it is to have that as 
your vocation and support yourself. Research shows us that the 
result is nearly half of childcare workers actually rely on 
public assistance to make ends meet.
    In Colorado means many childcare workers are, themselves, 
eligible for the Colorado Childcare Assistance Program. What 
does that mean for teacher turnover? How does it affect quality 
that the average rate is about $11 an hour?
    Ms. Harris. Well, we know in addition to the wages being 
low that compensation, so thinking of healthcare, time off, 
paid sick leave, that kind of thing really impacts, especially 
many of our staff who come from similar situations as those 
families that we serve.
    Sorry, do not remember the rest.
    Mr. Polis. What does it do to turnover rates and your 
ability to retain good early childhood educators?
    Ms. Harris. So, I would say in general if we do not have 
childcare, continuity of childcare for any parents, so our 
teachers, but also parents who are working then the turnover 
rate impacts the employment as well as the development of 
children.
    Mr. Polis. What can we do at the local, state, and federal 
level to support early childhood teachers and try to establish 
a greater respect and support for the profession?
    Ms. Harris. I think it is a great opportunity now. Head 
Start has taken the lead in ensuring that at least 50 percent 
of teachers have a Bachelor's Degree. We really need to focus 
on professional development interaction between children and 
their teachers is how they have great outcomes. That supports 
brain development.
    So, treating teachers as professionals. Currently, 
childcare teachers are defined as hourly workers.
    Mr. Polis. Dr. Stevens, you recently published a report 
making the business case for high-quality childcare which I 
very much enjoyed. On July 3rd, the Wall Street Journal 
published a story that compared women's participation in labor 
force and its implication on economic growth. I wanted to ask 
you based on your research can you briefly explain why 
investments in childcare are simply a wise decision for our 
economy and economic growth?
    Ms. Stevens. Yes, as I addressed in a report that was 
released a couple of weeks ago, and as I mentioned in my 
testimony childcare serves multiple purposes.
    So, first of all we know we are laying the groundwork for 
children's lifelong learning and success from kindergarten 
through their own participation in the workforce, and secondly, 
it enables parents to work which enables them to be self-
sufficient, and contributes to overall economic well-being of 
communities.
    Mr. Polis. So, you draw the numbers both from increased 
workforce participation which, for instance, you have an 
example in Canada which has led to more women working, as well 
as, of course, the longer term benefit which is the child 
themselves receiving it. Both of those are factors?
    Ms. Stevens. Correct.
    Mr. Polis. Okay. I yield back.
    Chairman Rokita. Thank the gentleman. Ms. Handel, you are 
recognized for 5 minutes.
    Ms. Handel. Thank you, Mr. Chairman, and thank you to all 
of the witnesses here today. My question is for Ms. Maas. You 
explained in your testimony how important it is for families to 
choose the type of care that is right for them and for their 
child whether that be the location, the schedule, cultural 
connections, teaching methods, and other very important aspects 
of the program.
    Do you think it is appropriate, more so or less so, for 
Congress to specify and dictate these aspects of a program or 
have you found that it is more important for each community and 
program to be able to determine and tailor what works best in 
that community for those families?
    Ms. Maas. Thank you for your question. So, from our 
perspective we do not support either Congress or local 
governments controlling program choice. We support individual 
parents controlling program choice and really having input into 
what is on offer in their community.
    And Dr. Harris mentioned some of this in her testimony. 
There are a ton of variables in play. In particular, as you 
think about childcare also as a workforce support, so the 
location. Close to work. Close to home. What makes the most 
sense for you. The hours.
    We see in a lot of instances in Minnesota, you know, 
workers in light manufacturing or food processing working 
second shift. We need to provide services to those families. It 
is really difficult to know or to set kind of a one size fits 
all in terms of schedule or programming options that are on 
offer.
    So, from our perspective we need to give parents a wider 
range of high-quality program choices and let them choose 
because they are in the best position to know what works for 
them.
    Ms. Handel. Thank you. It seems to me that would be an 
important aspect of a child-centered approach that would most 
succeed.
    Ms. Harris. Ms. Handel, I just wanted to share about Head 
Start.
    Ms. Handel. Actually, thank you. I have a second question, 
I do not want to use up my time, for Dr. Stevens. When you gave 
your testimony you talked a lot about science and research, and 
I was interested in understanding from you how best to promote 
rigorous research that would increase the knowledge about what 
works best for children and families.
    What general questions would that research answer? And what 
information are we currently lacking? And how will that benefit 
the states and local programs in making the best decisions for 
a child-centered program?
    Ms. Stevens. Yes, I mean, I think what the science tells us 
is general principles of what is crucial for child development. 
But, for example, one of the questions that we really do not 
know much about is we know that the adults working with 
children are the crucial factor for the development of young 
children, physical plant, curriculum is not really what matters 
for children under 5.
    What we do not know is how to identify and develop the 
kinds of professionals who will be effective with young 
children. What is clear from K-12 is that graduate degrees in 
no way ensure high-quality teaching. So, my background is in K-
12. As a matter of fact, my background is in teacher quality 
and preparation. I think we have an opportunity to learn from 
the mistakes that K-12 has made and approach this in a 
different way. I do not want to underestimate. I do not want to 
be underestimating how important the quality of that person is, 
but we just do not know enough about how to find the right 
people and how to prepare them to be effective with young kids.
    Ms. Handel. Great. Thank you so much. I yield back, Mr. 
Chairman.
    Chairman Rokita. I thank the gentlewoman. Mr. Fudge, you 
are recognized for 5 minutes. Not here. No, we had him crossed 
out. We asking questions?
    Mr. Scott, you are recognized for 5 minutes.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you, Mr. Chairman and Ranking Member 
Polis for holding his hearing and thank you to our witnesses.
    Like many of my colleagues I have visited many programs in 
Northwest Oregon. Head Start, Childcare Centers, Childcare 
Homes, prekindergarten programs. I was recently out at the 
Hillsboro, Oregon Head Start and one of the things that I 
really appreciate about Head Start is the family engagement 
piece, too. It is really meaningful.
    I hear support for high-quality early childhood programs 
everywhere I go, and even here this morning. And that is one of 
the reasons why I was so troubled to see that this 
administration is proposing cutting hundreds of millions of 
dollars for early childhood programs including Childcare 
Develop Block Grants, Head Start, Preschool Development Grants.
    I am pleased that the House appropriators are so far 
ignoring many of these proposals, but I am concerned about 
Congress' long term commitment to early childhood programs in 
light of all the research and all the success.
    I also want to note that the current Healthcare legislation 
proposes to slash Medicaid and that jeopardizes services for 
children, including children with disabilities both in early 
childhood and in school settings. And I recently met with the 
President of the Oregon Pediatric Society who is extremely 
concerned about that.
    So that the federal investment in early childhood programs 
is essential. It is meaningful. Of course programs need to be 
of high-quality to have a lasting benefit and high quality 
programs require significant resources, and it is a wise 
investment because we know children who get a strong start are 
more likely to succeed, less likely to need safety net programs 
later.
    Are there still, however, many eligible families who 
continue to go unserved? And I asked that question when I was 
visiting Head Start. There is a lot of unmet need out there, so 
clearly there is a role for us here.
    And I want to note, I do not think anybody supports funding 
duplicative, overlapping programs. We all want to work to make 
sure that we are expanding access and making sure that the 
resources are going to the families in need. If we can make 
these programs better and more assessable, let us do that. We 
can do that in a bipartisan way, similar to the bipartisan 
Child and Adult Care Food Program bill that Representative 
Stefanik and I have reintroduced, streamlining the program 
making kids eligible for a third meal when they are in 
childcare.
    Dr. Harris, I wanted to start by asking you to go ahead and 
respond. You wanted to say something about Ms. Handel's 
question regarding choice and I want to give you that 
opportunity.
    Ms. Harris. Thank you. Head Start sets high-quality 
standards, but part of that is to be responsive to the 
community that they are in. So, there is a structure and a 
framework that ensures that teachers are qualified, that there 
is comprehensive services. But you also then respond to if you 
are in the inner city, if you are in a farming community, so it 
really does help support parental choice.
    Ms. Bonamici. And I appreciate that. Constituents in my 
district, many of them benefit from high-quality migrant and 
seasonal Head Start programs. The children and families who 
participate in those programs benefit and so does the local 
economy, which relies on a productive agriculture sector.
    So, I want to ask you about that, but I also want to talk 
about the whole child approach. Certainly, we know that is 
important. I authored, it has not been reintroduced yet this 
year, but a bipartisan resolution demonstrating support for a 
whole child approach to education, social, emotional, and 
physical well-being.
    There are some great examples of that happening in Oregon, 
Earl Boyles Elementary School, for example, benefits from those 
strong community partnerships, preschool programs. There is 
access to housing resources, home visits, adult education 
programs, community health professionals, a food and pantry, 
and after school learning opportunities, and it really makes a 
difference.
    So, can you talk about the importance, Dr. Harris, of 
addressing all of the needs of families and children and the 
long term benefits of that? And then I also want you to address 
the importance of tailoring services like the migrant and 
seasonal Head Start programs. Go ahead.
    Ms. Harris. Yes.
    Ms. Bonamici. Before we run out of time.
    Ms. Harris. So, children, as they are developing it is not 
just cognitive. It is physical. It is social/emotional. Some 
children have different levels of needs which is why the 
community partners are important, as well as the relationship 
that we have with school districts and IDEA.
    Children are learning to think, and so it is not just about 
learning ABCs. It is about how to problem solve, how to have 
self-regulation skills. And communities, again, are different. 
So, the migrant Head Start programs are really clearly focused 
on working with the children so that the children have a place 
to go, a place to be educated.
    The other thing I just wanted to add is that Head Start 
asks the community to be engaged. There is a 25 percent in-kind 
match. So, the idea is that communities really want to provide 
this kind of service to their children and families.
    Chairman Rokita. I thank the gentlelady----
    Ms. Bonamici. Thank you. My time is expired. Thank you, Mr. 
Chair.
    Chairman Rokita.--the gentlelady's time is expired. She 
yields back.
    Mr. Garrett, you are recognized for 5 minutes.
    Mr. Garrett. Thank you, Mr. Chairman. I am delighted that 
yourself and the committee chair have seen fit to bring these 
fine individuals in for questions today. I think one of the 
existential challenges, and I use that word intentionally, 
existential, facing America is the denial of a fundamental 
entitlement of American birth, and that is the entitlement to 
an opportunity.
    That happens to manifest itself, I would argue, by virtue 
of geography or ones' zip code. Right? It is the belief of this 
member that no child based on any external factor is any less 
capable of success than another child, and yet we see pattern 
after pattern where our children are not failing our schools, 
but instead our schools are failing our children. That is that 
it is predictable based on zip code, perhaps, that one child is 
far more likely to achieve post-secondary degrees than another 
by virtue of where they grew up.
    And what I have observed, Mr. Chair, members of the panel 
is that there are all too many times a reverse correlation 
between per people expenditures and outcomes, and that we work 
systematically in some sectors to deny parents the fundamental 
opportunity to ensure that their children are enrolled in 
institutions where there is a high probability of success.
    And so I guess I say that to lead into the 2010 HHS study 
that was entitled the Head Start Impact Study that concluded 
that Head Start, 'had little or no positive effects for 
children who were granted access and that for the four year 
group compared similarly situated children not allowed access 
to Head Start. The program failed to raise cognitive abilities 
on 41 measures, specifically language skills, literacy, math, 
and school performance. Of the participation all of the 
children all failed to improve.'
    Alarmingly, Head Start for the three year old group 
actually had a harmful effect on the teacher assessed math 
ability of those children once they entered kindergarten. 
Teachers reported that non-participating children were more 
prepared in math skills than those who participated in Head 
Start.
    So, I think it is fair to say that what we do in this body 
should be judged not on its intent, oh, they meant well, but on 
its outcomes, and that the outcomes should be determined based 
on not how the child does in kindergarten or first grade, but 
how they do when they are 22, when they are 32, when they are 
42.
    So, I would ask first, Ms. Stevens, where parents are 
afforded more choices as it relates to the educational 
opportunities available to their children do we not see actual 
better outcomes in educational and life achievement amongst 
those children? In other words, if you are in a failing school 
district, but you are afforded the opportunity to go somewhere 
else is that child not more likely to be successful then if you 
are not allowed to go somewhere else?
    Ms. Stevens. My research focus is on the preschool years, 
so birth through four. The same principles apply. I think one 
of the very important things for us to remember is that there 
are millions of children who today are entering full time 
childcare as infants. By the time they enter kindergarten, many 
children have been in childcare for over 11,000 hours.
    What we know is that those hours are having a tremendous 
impact on their development. A full day, full year pre-K 
program is a little over 1,000 hours for four year olds. And 
the science is clear that the most important period of 
development actually occurs before children turn four.
    A full time Head Start program, again, most of the children 
in Head Start are four, some are three. The majority of those 
programs are less than a 500 hours. So, again, the science is 
making this very clear.
    When children are spending 11,000 hours starting in infancy 
in particular environments, those are the environments we need 
to look at. Unlike K-12 I would suggest that for low income 
parents the problem they are facing is actually a lack of 
choice because they do not have the resources and they do not 
have the information to make good choices.
    Mr. Garrett. And so the uniform product that is held out to 
individuals who face that lack of choice historically has not 
been successful. I guess the easy question is, is there a 
better way to do this? And I have only got 35 seconds.
    Ms. Stevens. There are some places where probably Head 
Start is the best option that children have, and I do not 
support taking that away from children when that is their best 
option. What we are seeing is a growing number of states who 
are stepping up and are providing a broader range of options--
--
    Mr. Garrett. So, I have got 15 seconds with absolutely no 
intent to be rude. I think the point is that historically and 
foundationally by this nation's charter, if you will, this has 
been the manifest responsibility of localities and states, and 
that if we empower localities and states to endeavor to create 
a better product we will find better products than Head Start.
    And so what we might be thinking about is how to allow 
people at the local level to determine what is best for their 
children. Thank you, Mr. Chair.
    Chairman Rokita. I think the gentleman. Gentleman's time is 
expired. Gentleman of Virginia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you, Mr. Chairman. Let me follow through 
on that, Dr. Stevens. Head Start has different qualities to it 
than some other early childhood education programs. It is 
actually housed in Health and Human Services because it 
provides a lot of other services.
    You indicated that would be the best choice for some 
parents. Who would benefit better by Head Start than other 
early childhood education programs? Dr. Stevens?
    Ms. Stevens. Head Start is a funding stream built around a 
set of ideas. What is important about that program are the 
ideas. There is nothing more magical about it being called Head 
Start than fourth grade.
    What we know is some fourth grades work very well for 
children and other fourth grades do not work well for children. 
The principles are always the same. The question is the 
implementation, and what we know is that the more hours that 
children are in environments and the younger they are the 
bigger the impact it is going to be having on their development 
and the more important focusing on quality is. So, Head Start 
is one way of approaching that.
    Mr. Scott. And is the benefit more profound with low income 
rather than upper income children?
    Ms. Stevens. The research is clear. Why is that? The reason 
for that is children in more advantaged environments are, in 
fact, getting a great deal of an investment starting in infancy 
at home. In terms of the developmental support they are getting 
at home.
    So, what early childhood programs do and, in fact, what 
childcare is doing for better or for worse is supplementing 
what is going on at home. So, if what is going on at home is 
for whatever reason insufficient, and then children are in poor 
childcare environments, you are exacerbating the problem. 
Right?
    So, the principles are going to be the same and we need to 
be focusing on the principles and what those do for children.
    Mr. Scott. Thank you. Ms. Maas, you indicated that your 
program is designed to eliminate the achievement gap by 5. What 
do you do to try to achieve that goal?
    Ms. Maas. Thank you. Yes, so as I said in my remarks we are 
really focused on a set of principles that are about starting 
early. So, this year Minnesota's legislature opened the 
opportunity of early learning scholarships to infants and 
toddlers who are in foster care or are homeless or in a child 
protection system. Offering, you know, full day, multiple 
years. Children who receive scholarships keep them until they 
enter kindergarten, trying to ensure continuity for families. 
Portability is a very important principle.
    So, as families move because of changes in home or location 
those dollars follow the child to make sure that they are 
stable in a new, high-quality environment. Of course, insisting 
on quality. This is a movement that is happening around the 
country and in Minnesota as well. What are the ingredients to a 
high-quality early care education setting? How can we support 
the existing provider base in offering those best practices? 
Those are the----
    Mr. Scott. Have you evaluated for results? Have you been 
able to achieve your goal?
    Ms. Maas. We have not been able to achieve our goal. We are 
continuously evaluating for results. I think the thing that has 
been more elusive is getting all of the ingredients in place at 
the same time. So, starting early, stabilizing children in 
high-quality programs for multiple years----
    Mr. Scott. And do you have long term evaluations of your 
initiatives?
    Ms. Maas. Yes, so the private sector in Minnesota has 
invested about, you know, a $1 million or more over time. In 
evaluating we are committed to continuing that evaluation, and 
we feed that evaluation back into the programs to improve them.
    Mr. Scott. Thank you. Does somebody on the panel know about 
Part C under the Individuals with Disabilities Education Act?
    Ms. Harris. I am sorry. I did not understand the question.
    Mr. Scott. On Part C, can you talk about the importance of 
investments under Part C?
    Ms. Harris. Yes, they focus on children from birth to 
three. They create an individualized family services plan, so 
the idea is that, again, you are engaging families as well as 
specialists in supporting the development of their children. 
And it is a very specific, defined disability in order to 
qualify for that program.
    Mr. Scott. Do you have early intervention before 
disabilities manifest?
    Ms. Harris. Yes, so all of the children in Head Start are 
screened as soon as they enter the program and assessed ongoing 
throughout the year so that we can provide those intervention 
services.
    Chairman Rokita. I thank the gentleman. The gentleman's 
time has expired. I will now recognize myself for 5 minutes of 
questioning.
    Let me start first with Ms. Barnes. You know, on older 
reports on this subject on hand today we found that those 
reports said, 'fragmentation and program overlap can create an 
environment in which programs may not serve children and 
families as efficiently or effectively as possible.' And that, 
'the existence of multiple programs can create an added 
administrative cost such as cost associated with determining 
eligibility and meeting varied reporting requirements.'
    Are we still adding cost to programs in terms of your 
latest review? What do you find? Do we still have a variety of 
programs that might not be serving children and families as 
efficiently and effectively as possible or did we clean all 
that up?
    Ms. Brown Barnes. Yes, sure. 2012 review was based on 2010 
information, but our current one is based on the fiscal year 
2015 obligations, and it was 15 billion with the programs that 
we are talking about today. Back then there were 12 programs 
with an explicit early learning or childcare purpose, 33 that 
allow funds to be spent on such activities, and 5 tax 
expenditures. So, a little different from what we found this 
time which we found in nine explicit purpose programs, 35 that 
allow early learning or childcare spending, and three tax 
expenditures.
    But for this review we actually removed six programs that 
were no longer either funded or for various other reasons such 
as Race to the Top, Early Learning Challenge, and we added an 
additional eight programs that were not part of our 2012 review 
such as Preschool Development Grants. So, there are some 
differences, to address that question.
    Chairman Rokita. Differences? Does that mean better or 
worse?
    Ms. Brown Barnes. In terms of better or----
    Chairman Rokita. Duplication and costs and all that?
    Ms. Brown Barnes. We looked at the performance of the 
programs on a very----
    Chairman Rokita. So, you did not look at duplication or 
anything like that?
    Ms. Brown Barnes. Not in terms of overall. We do have some 
of that. We did identify that in our report. We talk about some 
of the programs that do overlap. In terms of duplication, we 
identify potential duplication. I can explain some of that.
    Some of the programs have a limited requirement for data, 
so it is difficult to determine whether there is actual 
duplication.
    Chairman Rokita. So, there are 44 programs?
    Ms. Brown Barnes. There are 44 programs.
    Chairman Rokita. And you cannot tell which ones are likely 
overlapping or duplicative in nature?
    Ms. Brown Barnes. Well, some are overlapping. I gave a 
couple of examples earlier----
    Chairman Rokita. Yes, that is what I thought.
    Ms. Brown Barnes. Yes. Like, Head Start and Preschool 
Development Grants. If you are looking at whether they have 
similar goals, activities, or target similar populations. Yes, 
they both target low income children under 5 and provide slots 
for early learning.
    Chairman Rokita. Okay. Thank you. Dr. Stevens and Ms. Maas, 
today we heard that there are a multitude of federal programs. 
Some may be a disservice to the American family, business owner 
and tax payer. We have also heard examples of state and local 
innovation which are clearly better at meeting the needs of 
those involved, in my opinion.
    As we look to reform the system is there a better way 
Congress should provide assistance to states to make it easier 
at the local level? We will start with you, Dr. Stevens.
    Ms. Stevens. A number of the new programs the GAO report 
has identified are, in fact, successful federal efforts to 
promote state leadership in this area. Not all states are 
equally interested and are committed to early childhood at this 
point.
    Chairman Rokita. I heard you say that.
    Ms. Stevens. There are a number of states that are not only 
far ahead of where they were in 1965, they are far ahead of 
where the federal government is now. To me, what makes the most 
sense is Colorado is one, Minnesota is one, Indiana is one, 
North Carolina is one. We have a number of these states.
    If we can find ways to leverage federal funds to highlight 
and support that state momentum, those states can be very 
valuable models for the country.
    Chairman Rokita. Are you proposing some kind of incentive 
procedure? Do you think we can find ways? That is my question. 
What would be the ways?
    Ms. Stevens. I have written about one possible approach to 
this which would be what I have suggested would be a fairly 
small pilot project to give a handful of states, and there is a 
number of them represented here, the opportunity for a period 
of experimentation where they get money, if the money is held 
to high standards.
    Chairman Rokita. Interesting. Could you submit that for the 
record? You said this is a separate report you did or?
    Ms. Stevens. Correct. I can provide that.
    Chairman Rokita. Would you mind providing that?
    Ms. Stevens. Yes.
    Chairman Rokita. And I would like to see it entered in the 
official record if we could.
    My time is expired so I cannot make the rules up here and 
then not follow them, unfortunately. So, Ms. Maas, we cannot 
get to you to answer that question, and Dr. Harris, same thing.
    So, with that, I want to thank the witnesses again for 
answering the questions. I do not see any more members to ask 
questions, so we will go to Mr. Polis for his closing 
statement.
    Mr. Polis. Thank you. I do want to highlight actually what 
our Chair was talking about with Dr. Stevens is the Race to the 
Top, Early Childhood Learning Challenge Grant Programs. That 
was the program also included in the testimony.
    I want to thank Chairman Rokita and our witnesses for 
joining us. In particular, those who had to travel, Dr. Harris 
and Ms. Maas thank you for coming all the way to our nation's 
capital. As our witnesses shared, the science behind the 
benefits of early learning is undeniable, and I am glad that 
today's hearing really focused around the most effective way to 
deliver those services. It is critical that children receive 
high-quality early childhood education at the earliest ages.
    Dr. Harris, thanks for your good work in Colorado and thank 
you for sharing with us the work you are doing at Mile High 
Early Learning Center, and the way that you are creatively 
using the different federal programs to meet the individual 
needs of young learners. She also spoke to the importance and 
value of each program and the need to maintain federal support 
for these programs.
    After today's discussion I want to make sure that we 
carefully tread in the area of eliminating duplicative 
programs. The GAO report and, obviously, we have not had a 
chance to see the new one, but the previous one has not found 
significant duplication of early childhood learning programs. 
Duplicative means that they overlap, often toward the same 
goal. It is not the same as the recommendation that one program 
would better replace two.
    Overlapping goals, parameters of programs can be adjusted 
and sometimes it takes several programs working together to 
meet a common goal. But I want to be clear that overlapping is 
not the same as a word that is not contained in at least the 
prior version of the report, we have not read this one, like 
redundant.
    It is apparent after learning from Colorado and Minnesota 
that there is variation in how states and local governments 
determine and successfully create affordable early learning 
systems which makes the case there is flexibility in federal 
regulations, and if there is a meaningful way to work to 
improve that, we certainly look forward to working with our 
Republican colleagues to do that.
    The Ounce, whose report Ms. Stevens cited in her testimony, 
describes the complexity created by state imposed non-federally 
mandated regulations. It is important to highlight that these 
issues regard compliance not governance or program efficacy or 
integrity and those are very different.
    Congressional Democrats are thinking through ways to 
support high-quality early leaning and whatever we can do to 
help states fill the gaps that my home state in Colorado is not 
unique, unfortunately, in having.
    Early learning, quality childcare not just an education 
issue. It is a jobs issue. It is a workforce issue very much in 
the purview of this committee's other work. Affordable 
childcare and early childhood education empowers workers, 
allows people to reenter the workforce sooner and, of course, 
equips future generations with the foundational tools that they 
need for success in life.
    Democrats are currently working on a bold visionary early 
learning proposal to allow working and middle class families to 
access quality, affordable early learning and care 
opportunities, and I strongly believe that support for early 
learning is a bipartisan issue, and we look forward to working 
with our Republican colleagues.
    And I invite my Republican colleagues to work with 
Democrats on supporting early childhood education, and I look 
forward to working with the Republicans towards this goal. 
Thank you and I yield back the balance of my time.
    Chairman Rokita. I thank the gentleman and I thank the 
witnesses again for your time today. We continue up here to 
learn a lot from you and so we appreciate it. We also 
appreciate the fact that you are on the front lines of this 
issue and at least for two of our witnesses, three, you are on 
the front lines with the kids. Right? With the children right 
there.
    And, again, as I said at the beginning of this hearing, the 
children are this country's most important asset in so many 
different ways, however you want to define that. So, I really 
appreciate and applaud the work that each of you are doing.
    Of course, Representative Polis, you have our commitment to 
work together on this issue. It is very important. Nothing can 
replace a family bringing up a child, especially at those early 
years for the environment from where they first start learning, 
as Dr. Stevens says.
    But with environment today, with working parents, and 
everything else going on there certainly is, the science tells 
us, right? There is a role for early childhood learning, 
childcare, and the differences between those two have been 
exposed in this hearing as well, and I think that is a very 
important difference and needs to be considered carefully as we 
move forward.
    We have to make sure as fiduciaries of tax payers' funds, 
not our property, their property, that these programs, whatever 
adjective you want to assign to them, are being used in the 
most efficient way possible. That is our duty. That is what 
Congress' Article I powers are.
    Those duties will not be suspended here on this 
subcommittee, for sure, as long as I am the chairman of it. So, 
with that we will take your information, your testimony, and 
move forward with legislative policy on this matter.
    Seeing no other business before the committee I want to, 
again, lastly thank the witnesses, thank the members for coming 
today, and I see this committee as remaining adjourned.
    [Additional submissions by Mr. Polis follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
